     Department of Homeland Security

     2IÀFHRI,QVSHFWRU*HQHUDO


         FEMA Should Recover $258,488 of 

   Public Assistance Grant Funds Awarded to the 

   Graton Community Services District, California 





OIG-14-109-D                                June 2014

                                  OFFICE OF INSPECTOR GENERAL
                                       Department of Homeland Security
                                        Washington, DC 20528 / www.oig.dhs.gov


                                                 JUN 2 5      '. 1


MEMORANDUM FOR:                        Karen Armes
                                       Acting Regio  Administrator Region IX
                                       Federal Em rg c M          e nt Agency

FROM:                                  John V.
                                       Assista    nspector General
                                       Office of Emergency Management Oversight

SUBJECT:                               FEMA Should Recover $258,488 of Public Assistance Grant
                                       Funds Awarded to the Groton Community Services District,
                                       California
                                       FEMA Disaster Number 1628-DR-CA
                                       Audit Report Number OIG-14-109-D

We audited Federal Emergency Management Agency (FEMA) Public Assistance grant
funds awarded to the Graton Community Services District of Graton, California (District),
Public Assistance Identification Number 097-UGBU4-00. Our audit objective was to
determine whether the District accounted for and expended FEMA grant funds
according to Federal regulations and FEMA guidelines.

The California Governor's Office of Emergency Services {California), a FEMA grantee,
awarded the District $3.4 million for damages resulting from severe storms, flooding,
mudslides, and landslides from December 17, 2005, through January 3, 2006. The award
                                                                                    1
provided 75 percent FEMA funding for one large project and two small projects. The
audit covered the period December 17, 2005, to January 8, 2014. We audited all three
                                                                           2
projects, or 100 percent of the claim, totaling $4.1 million (see exhibit). Table 1 shows
the gross and net award (before and after FEMA deducted anticipated insurance
proceeds) for all projects. As of the date of this report, California was preparing to
review the District's final claim .




1
    Federal regulations in effect at the time of the disaster set the large project threshold at $57,500.
2
  Although FEMA initially obligates funding based on estimated costs, it funds large projects using a final
accounting of actual costs. After reviewing a final claim for reimbursement, FEMA may adjust
(obligate/deobligate) the amount of the grant to reflect the actual cost of the eligible work. In the case of
the District, FEMA (through California) obligated $3.4 million, but the District ultimately submitted a
(revised) final claim to California amounting to $4,113,669.
                                 OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security


                              Table 1. Gross and Net Award Amounts
                                    Gross Award      Insurance     Net Award
                     Projects
                                       Amount       Reductions      Amount
                                                                 3
                   All Projects        $3,407,307      ($22,387)    $3,384,920
               Source: FEMA and District Project Documentation

    We conducted this performance audit between September 2013 and March 2014,
    pursuant to the Inspector General Act of 1978, as amended, and according to generally
    accepted government auditing standards. Those standards require that we plan and
    perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
    basis for our findings and conclusions based upon our audit objective. We believe that
    the evidence obtained provides a reasonable basis for our findings and conclusions
    based upon our audit objective. We conducted this audit by applying the statutes,
    regulations, and FEMA policies and guidelines in effect at the time of the disaster. We
    decided to audit this grant, in part, because FEMA officials requested our collaboration
    to assist them in reviewing its Public Assistance Program subgrants that were ready for
    closeout.

    We interviewed FEMA, California, and District officials; reviewed judgmentally selected
    project costs (generally based on dollar value); and performed other procedures
    considered necessary to accomplish our objective. We also notified the Recovery
    Accountability and Transparency Board of all contracts the subgrantee awarded under
    the grant to determine whether the contractors were debarred or whether there were
    any indications of other issues related to those contractors that would indicate fraud,
    waste, or abuse. We did not assess the adequacy of the District’s internal controls
    applicable to grant activities because it was not necessary to accomplish our audit
    objective. However, we did gain an understanding of the District’s method of accounting
    for disaster-related costs and its procurement policies and procedures.


                                              BACKGROUND

    The Graton Community Services District (District), located in Sonoma County, California,
    currently has one function: the maintenance and operation of a wastewater treatment
    plant.

    Beginning on December 17, 2005, flooding occurred and waters from two nearby creeks
    soon overtopped the protective levee surrounding the facility and inundated the
    treatment plant, eroding levee material into three settling ponds and damaging
    3
     The District actually received $20,542 in insurance proceeds of the $22,387 that FEMA originally
   estimated.
www.o ig.dhs.gov                                        2                                          OIG-14-109-D
                                OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security

    stationary equipment. FEMA provided grant funding to repair the facility and to build a
    concrete floodwall surrounding parts of the facility to mitigate the impact of a future
    event (see figure 1).

          Figure 1. Settling Ponds, Graton Sewer Treatment Facility (October 2009)




                Source: Graton Community Services District



                                           RESULTS OF AUDIT

    The District did not properly account for or expend $258,488 according to Federal
    regulations and FEMA guidelines (see table 2). This amount represents about 6 percent
    of the $4,113,669 the District claimed.

                           Table 2. Summary of Costs Questioned
   Finding                           Subject                    Costs Questioned
       A                     Improper Procurement                        $241,755
       B                Duplicate Administrative Costs                      13,500
       C           Costs Claimed Not Related to the Disaster                 3,233
      Total                                                              $258,488
  Source: FEMA and District Project Documentation and OIG Analyses

    Further, District officials did not recover $20,542 in insurance proceeds until after we
    advised them of their oversight. The District did not deduct the proceeds from its initial
    claim, as FEMA requires (finding D). Also, the District may have included costs that were
    administrative in nature in its claim for engineering costs, thereby duplicating costs
    covered by the statutory administrative allowance (finding E). These findings occurred,
    in part, because California officials did not consistently ensure that District officials were
    aware of and complied with applicable Federal regulations and FEMA guidelines.
    Therefore, California should improve its oversight of subgrant activities (finding F).
www.o ig.dhs.gov                                     3                                   OIG-14-109-D
                                 OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security


    Finding A: Improper Procurement for the Architectural & Engineering (A&E) Contract

    The District awarded four contracts totaling $3,477,741 to complete the work FEMA
    authorized. District officials generally complied with Federal procurement standards for
    three of these contracts, totaling $3,038,485, but did not comply with those standards
    in awarding an A&E contract for $439,256. As a result, full and open competition did not
    always occur and the District claimed $241,755 in excessive A&E costs that we question
    as unreasonable.

    Federal procurement standards at 44 Code of Federal Regulation (CFR) 13.36, stipulate
    that subgrantees must perform the following activities:

        •	 Conduct procurements in a manner providing full and open competition except
           under certain circumstances. (13.36(c))
        •	 Use noncompetitive proposals only in limited circumstances (such as when the
           item is only available from one source or FEMA authorizes noncompetitive
           proposals). (13.36(d)(4)(i))
        •	 Avoid using time-and-material type contracts unless no other contract is suitable and
           provided the contract includes a ceiling price, which the contractor exceeds at its own
           risk. (13.36(b)(10))
        •	 Prepare a cost or price analysis in connection with every procurement action,

           including contract modifications. (13.36(f)(1))

        •	 Maintain a contract administration system that ensures contractors perform in
           accordance with the terms, conditions, and specifications of their contracts or
           purchase orders. (13.36 (b)(2))

    In addition, Federal cost principles and FEMA guidelines require that costs subgrantees
    claim must: (1) be reasonable and necessary to accomplish the work; (2) not exceed
    costs that a prudent person would incur under similar circumstances; and (3) be fair and
    equitable for the type of work performed. 4

    District officials did not comply with these criteria for the A&E contract. Instead, they
    awarded a non-competitive, time-and-material contract with no ceiling; did not prepare
    a cost or price analysis; and did not properly monitor the contractor’s performance to
    ensure cost reasonableness. One week after the disaster occurred, the District accepted
    and approved a proposal from an engineering contractor that, since December 2004,
    had been performing work on the District’s capital improvements. The District did not
    seek similar proposals from any other engineering firms or conduct a cost or price

    4
    2 CFR, Section 225, Appendix A, C.2.; and Public Assistance Guide (FEMA 322, October 1999, pp. 33, 39,
   and 81).
www.o ig.dhs.gov                                        4	                                        OIG-14-109-D
                                 OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security

    analysis to determine reasonable costs for the work needed. District officials used a
    time-and-material contract, but did not determine (or justify) that no other contract
    type was suitable or include the required ceiling. Time-and-material contracts are riskier
    than other types, such as fixed-price or costs-plus-fixed-fee contracts, because they
    require careful monitoring to ensure that the contractor bills only for authorized work
    that it can properly support with detailed timesheets and invoices.

    However, District officials did not create or approve a disaster-related scope of work for
    the engineering contractor and did not carefully monitor contractor expenses. They
    have no documentation demonstrating that they signed or otherwise approved—or
    even required the engineer to maintain—detailed timesheets, planned work
    assignments, or descriptive invoices. Further, the District’s policy required (Board of
    Directors) approval of engineering invoices that exceeded $25,000. However, the
    District could not provide documentation supporting the Board’s review and
    authorization of four A&E invoices that exceeded the $25,000 threshold.

    Because the District did not take the required precautions to ensure that the contractor
    performed only authorized work at reasonable prices, we analyzed the costs to
    determine eligibility and reasonableness. The District claimed $439,256 for A&E work, or
    about 14.5 percent of the $3,038,485 costs for actual construction work. FEMA’s
    guidelines on engineering costs (for projects of above-average complexity) indicate that
    about 6.5 percent of the construction costs are reasonable. 5 Per these guidelines, the
    reasonable amount would be approximately $197,501, or $241,755 less than what the
    District claimed.

    FEMA relies on final inspection and reconciliation to determine the actual costs for
    reimbursement of engineering services; however, one can estimate the costs during
    project formulation using a percentage of the construction cost. FEMA derives these
    percentages from its Engineering and Design Services Cost Curves. These curves, which
    FEMA bases on data developed by the American Society of Civil Engineers, show a
    correlation between engineering costs and total construction costs. Figure 2 depicts a
    cost curve.




    5
     To be conservative, we used FEMA’s 6.5 percent guideline for “above-average” complexity, rather than
   its 5.5 percent guideline for average complexity. However, we would categorize much of the District’s
   construction work (such as constructing a basic wall) to be of average complexity.
www.o ig.dhs.gov                                        5                                         OIG-14-109-D
                               OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security


                               Figure 2. FEMA’s Cost Curve A
       Engineering and Design Services for Above-Average Complexity: Eligible vs. Actual




                   Source: FEMA 322

    In addition to being excessive, some of the engineering costs the District claimed appear
    to be ineligible. FEMA criteria indicate engineering and design services that are generally
    eligible for reimbursement include preliminary engineering analysis, preliminary design,
    final design, and construction inspection (FEMA 322, p. 75, October 1999). However,
    many of the tasks the A&E contractor performed appear to be administrative in nature
    and, therefore, ineligible (see findings B and E).

    In conclusion, District officials did not comply with Federal procurement standards in
    awarding and administering the A&E contract. As a result, full and open competition did
    not occur and the District claimed $241,755 in excessive A&E costs that we question as
    unreasonable.



www.o ig.dhs.gov                                  6                                   OIG-14-109-D
                                  OFFICE OF INSPECTOR GENERAL
                                       Department of Homeland Security

    District officials agreed that they did not follow Federal contracting procedures for
    engineering and construction management services. They asked that we consider that
    they did not have the time or resources for competitive procurement in the aftermath
    of the disaster. Officials said it would have been less efficient and create considerable
    delays to their ongoing work to properly procure these services. They also said that
    California officials never advised them on these requirements. We maintain that the
    District took more than 6 years to complete the work and should have taken a minimum
    of time upfront to ensure full and open competition and reasonable costs. Further, full
    and open competition ensures more than just reasonable costs. It also helps to
    discourage and prevent favoritism, collusion, fraud, waste, and abuse. Regarding the
    reasonableness of the claimed engineering costs, District officials said they mistakenly
    comingled costs and functions in their claim. For example, they acknowledged their
    claimed costs included engineering services, construction management services, and
    grant administration charges. They said, when properly segregated, the engineering
    services fall within FEMA’s criteria for reasonableness. They told us that they plan to
    properly identify and segregate all of their charges and resubmit their claim to California
    and FEMA.

    California officials generally agreed with our finding and reiterated that the District
    should separately account for and claim the variety of charges related solely to the
    contracted engineering services. California officials said they would await the District’s
    revised claim.

    FEMA officials are withholding comment until after we issue our final report.

    Finding B: Duplicate Administrative Costs

    The District improperly claimed $13,500 for the cost of A-133 ($9,000) and California-
    required ($4,500) audits under Project 2776. 6 These costs are, in effect, duplicate costs
    because the statutory administrative allowance covers such costs. 7

    According to 44 CFR 206.228, a subgrantee receives an administrative allowance to
    cover the necessary costs of requesting, obtaining, and administering Federal disaster


    6
     The District expended more than $500,000 per year in Federal awards and thus was subject to audit
   requirements commonly referred to as Single or A-133 audits. The Office of Management and Budget
   requires these audits under its guidelines Audits of States, Local Governments, and Non-Profit
   Organizations (Circular A-133). Further, California requires that its Special Districts—of which Graton
   Community Services District is one—have a complete annual audit of their financials. These audits of
   financial statements and other information become available to the public, the Governor, any potential
   grantors, and financial institutions, etc.
   7
      Finding E relates to additional costs that we identified that may be administrative in nature and covered
   by the statutory administrative allowance.
www.o ig.dhs.gov                                           7                                           OIG-14-109-D
                                  OFFICE OF INSPECTOR GENERAL
                                       Department of Homeland Security

    assistance subgrants. The allowance covers all direct and indirect administrative costs. 8
    Audits are administrative in nature, and therefore subgrantees cannot separately claim
    the costs for audits because the administrative allowance covers these costs.

    California officials previously determined that the $13,500 the District claimed for the
    cost of audits was ineligible and deducted the amount from the District’s claim.
    Nevertheless, District officials submitted the same costs again for reimbursement in a
    subsequent, revised claim.

    Therefore, FEMA should disallow $13,500 as ineligible costs and review all engineering
    costs the District claimed to ensure they did not include costs for grant administration.
    District officials agreed with our finding and said California did not make them aware of
    the requirements pertaining to the statutory administrative allowance. They said they
    will work with California officials to resubmit their claim and seek reimbursement for
    these costs from the statutory administrative allowance or elsewhere.

    California officials generally agreed with our finding and said they would provide the
    District additional information on the statutory administrative allowance and
    collaborate with the District to revise their claim. FEMA officials are withholding
    comment until after we issue our final report.

    Finding C: Costs Claimed Not Related to the Disaster

    District officials improperly claimed $3,233 for Project 2776 for engineering services
    (surveying consultation and drainage collection) that a contractor performed before the
    disaster occurred. Federal regulations and FEMA guidelines stipulate that claimed costs
    must be for work directly related to the declared disaster [44 CFR 206.223; Public
    Assistance Guide (FEMA 322, October 1999, pp. 23, 33, and 71–73)].

    The contractor performed the engineering services during December 1–15, 2005, which
    was before the disaster began on December 17, 2005. Therefore, we question as
    ineligible the $3,233 the District claimed in costs for Project 2776 that did not relate to
    the disaster. 9

    District officials agreed with our finding and said they would revise their claim. California
    officials agreed with this finding. FEMA officials are withholding comment until after we
    issue our final report.

    8
     For disasters that occurred after November 13, 2007, FEMA no longer provides this allowance, but
   allows subgrantees to claim administrative costs that directly relate to specific projects (FEMA Disaster

   Assistance Policy 9525.9).

   9
     This amount does not include those costs related to the District’s claimed preparedness costs incurred 

   immediately before the disaster (e.g., sandbagging). We did not question those costs.

www.o ig.dhs.gov                                       8                                              OIG-14-109-D
                              OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


    Finding D: Unreported Insurance Recovery

    District officials did not recover $20,542 in insurance proceeds until after we advised
    them of their oversight. Thus, the District did not deduct such proceeds from its initial
    claim, as FEMA requires. Federal regulations require FEMA to deduct actual or
    anticipated insurance recoveries that apply to eligible costs from project awards (44 CFR
    206.250(c)). This action prevents subgrantees from receiving duplicate benefits for
    losses.

    FEMA officials correctly deducted $22,387 in anticipated (estimated) insurance proceeds
    from the funding they obligated for the District’s eligible projects. However, District
    officials did not actively pursue recovering $20,542 of insurance proceeds for which they
    were eligible under their insurance policy in effect at the time of the disaster. Therefore,
    their initial claim to FEMA included $20,542 in ineligible costs for which FEMA should
    not have been liable.

    During the course of our audit fieldwork, we brought this issue to the attention of
    District officials. At first, they could not confirm whether they had filed an insurance
    claim for damages related to the disaster, but they started looking into the matter. As a
    result, their insurance provider issued proceeds of $20,542 related to the disaster
    damages, which the District subsequently deducted from its revised claim.

    This disaster is over 8 years old. Therefore, the District should have long ago pursued its
    insurance claim and notified California of the actual proceeds. Further, California, as the
    grantee, should have held the District accountable for pursuing and reporting insurance
    proceeds in a timely manner.

    District and California officials generally agreed with our finding. FEMA officials are
    withholding comment until after we issue our final report.

    Finding E: Costs Covered by Statutory Administrative Allowance

    The District included administrative costs in its claim for engineering costs (see finding
    A). FEMA covers administrative costs through its statutory administrative allowance and
    so the District cannot claim them separately as direct project expenses. The District
    agreed to revise and resubmit its claim to FEMA; therefore, we did not verify the total
    administrative costs improperly included in the District’s claim for engineering services.

    According to 44 CFR 206.228, a subgrantee receives an administrative allowance to
    cover the necessary costs of requesting, obtaining, and administering Federal disaster
    assistance subgrants. The allowance covers all direct and indirect administrative costs,
www.o ig.dhs.gov                                 9                                      OIG-14-109-D
                                  OFFICE OF INSPECTOR GENERAL
                                       Department of Homeland Security

    including the costs of tasks such as identifying damage, attending briefings, completing
    forms, providing documentation, assessing damage, collecting cost data, developing
    estimates, and working with California. 10 The District’s claim included many of these
    costs, for activities it described as—

         •   estimating costs
         •   developing FEMA spreadsheets
         •   preparing applications to FEMA
         •   analyzing costs
         •   traveling to and attending FEMA training
         •   reviewing FEMA flood application requirements
         •   exchanging emails related to FEMA
         •   writing cover letters
         •   discussing FEMA funding
         •   packaging and mailing letters to FEMA and the State for budget augmentation
         •   discussing matters with the State

    District officials agreed with our finding and said California did not make them aware of
    the requirements pertaining to the statutory administrative allowance. They also said
    they included various charges related to the overall administration of the grant in their
    claim for contracted engineering services (see finding A). They intend to identify and
    segregate these costs and work with California officials to resubmit their claim and seek
    reimbursement for these costs from the statutory administrative allowance or
    elsewhere.

    California officials generally agreed with our finding and indicated that they would
    provide the District additional information on the statutory administrative allowance
    and collaborate with the District to revise their claim. FEMA officials are withholding
    comment until after we issue our final report.

    Finding F: Grantee Management

    The preceding findings in this report occurred, in part, because California officials did
    not consistently ensure that District officials were aware of and complied with
    applicable Federal regulations and FEMA guidelines. Further, District officials
    consistently said they did not receive enough or appropriate guidance from California.
    Although California officials were involved in the projects and took their role as grantee
    seriously, they need to improve their procedures for monitoring and managing Federal

    10
      For disasters that occurred after November 13, 2007, FEMA no longer provides this allowance, but
   allows subgrantees to claim administrative costs that directly relate to specific projects (FEMA Disaster
   Assistance Policy 9525.9).
www.o ig.dhs.gov                                      10                                              OIG-14-109-D
                             OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security

    grants. Federal regulations at 44 CFR 13.37(a)(2) requires the State (California) to ensure
    that subgrantees are aware of requirements that Federal regulations impose on them.
    Further, 44 CFR 13.40(a), requires grantees to manage the day-to-day operations of
    subgrant activity and monitor subgrant activity to ensure compliance with applicable
    Federal requirements. California officials could improve in providing sufficient oversight
    and coordination of subgrant activities, particularly to ensure that subgrantee officials
    manage Federal grants associated with future disasters effectively and efficiently.
    District officials agreed with this finding. California officials did not comment on this
    finding, except to note that the District is a small entity and therefore may not have
    been fully equipped to process and implement the guidance California provided them.
    FEMA officials are withholding comment until after we issue our final report.


                                         RECOMMENDATIONS

    We recommend that the Acting Regional Administrator, FEMA Region IX:

    Recommendation #1: Disallow $241,755 (Federal share $181,316) of ineligible contract
    costs that do not comply with Federal procurement regulations and are excessive and
    unreasonable according to FEMA guidelines, unless the District can provide proper
    documentation to support these costs (finding A).

    Recommendation #2: Review the items of work for all engineering costs the District
    claimed and disallow (or reallocate) those costs that are not eligible engineering services
    (findings A and E).

    Recommendation #3: Disallow $13,500 (Federal share $10,125) in ineligible project
    costs that the statutory administrative allowance covers (finding B).

    Recommendation #4: Disallow $3,233 (Federal share $2,425) in ineligible costs that are
    not related to the disaster (finding C).

    Recommendation #5: Ensure the District and California accurately reflect in its final
    claim the $20,542 in proceeds the District received from its insurance provider
    (finding D).

    Recommendation #6: Advise California to instruct its subgrantees to pursue all
    insurance proceeds for which they are entitled and deduct such proceeds from their
    final claims (finding D).

    Recommendation #7: Review all costs claimed as engineering to determine actual
    engineering costs versus those costs eligible under the statutory administrative
www.o ig.dhs.gov                                11                                     OIG-14-109-D
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security

    allowance, and instruct the District and California to claim all applicable costs under that
    allowance and exclude all other costs that are not direct project costs from the District’s
    final claim (finding E).

    Recommendation #8: Direct California to improve its oversight and coordination of
    Federal grant funding to ensure that its subgrantees comply with Federal regulations
    and FEMA guidelines governing proper procurement, reasonable costs, insurance, and
    the statutory administrative allowance (findings A to F).


                   DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOWUP

    We discussed these findings with District officials during the course of this audit and
    included their comments in this report, as appropriate. We also provided a written
    summary of our findings and recommendations in advance to FEMA on March 12, 2014,
    and to California and District officials on March 17, 2014. We discussed the findings and
    recommendations at an exit conference with California and District officials on March
    19, 2014, and FEMA officials on March 26, 2014.

    Within 90 days of the date of this memorandum, please provide our office with a
    written response that includes your (1) agreement or disagreement, (2) corrective
    action plan, and (3) target completion date for each recommendation. Also, please
    include the contact information of responsible parties and any other supporting
    documentation necessary to inform us about the current status of the
    recommendations. Until we receive and evaluate your response, we will consider the
    recommendations open and unresolved.

    Consistent with our responsibility under the Inspector General Act, we will provide
    copies of our report to appropriate congressional committees with oversight and
    appropriation responsibility over the Department of Homeland Security. We will post
    the report on our website for public dissemination.

    Major contributors to this report are Humberto Melara, Director; Devin Polster, Audit
    Manager; and Montul Long, Auditor.

    Please call me with any questions at (202) 254-4100, or your staff may contact
    Humberto Melara, Director, Western Regional Office, at (510) 637-1463.




www.o ig.dhs.gov                                12                                      OIG-14-109-D
                                   OFFICE OF INSPECTOR GENERAL
                                         Department of Homeland Security

                                                                                                            Exhibit

                         Schedule of Projects Audited and Costs Questioned

                                                                                Questioned Costs
                    Project                                                                     Costs
    Project /
                    Award                      Insurance                       Duplicate      Claimed
      FEMA                         Costs                12     Improper
                   Amount                     Recovery                      Administrative Not Related
   Category of                    Claimed                    Procurement                                     Total
                    (Net of                   (Finding D)                        Costs          to the
      Work                  11                                (Finding A)
                 Insurance)                                                   (Finding B)     Disaster
                                                                                             (Finding C)
     2776 / F      $3,361,649    $4,082,381      $17,185        $241,755           $13,500         $3,233   $258,488
    *1538 / B          18,174      **19,726
    *2166 / E           5,097      **11,562        3,357
      Total        $3,384,920    $4,113,669      $20,542        $241,755          $13,500         $3,233    $258,488
   Source: FEMA and District Project Documentation and OIG Analyses

   * Small Project

   ** California denied the District’s overrun request for Project 2166 because District officials did not submit
      a Net Small Project Overrun request within the regulatory 60-day mandatory timeframe. It is unclear
      whether California will likewise deny the additional costs the District claimed for Project 1358, based on
      the overrun recorded in their updated claim. California’s review is forthcoming. (A Net Small Project
      Overrun occurs when the applicant (District) incurs costs greater than the total amount approved for all
      small projects.)




    11
     FEMA estimated the District’s insurance proceeds to be $22,387. 

    12
     The District deducted the insurance proceeds from the total costs of all projects (large and small) 

   combined in its final claim to California and FEMA. Therefore, we accounted for insurance recoveries for

   each project on a prorated basis according to FEMA’s initial anticipated insurance proceeds allocations.

   The District actually received $20,542 in insurance proceeds of the $22,387 that FEMA originally

   estimated.

www.o ig.dhs.gov                                        13                                          OIG-14-109-D
                             OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security

                                                                               Appendix

                                      Report Distribution

    Department of Homeland Security
    Secretary
    Chief of Staff
    Chief Financial Officer
    Under Secretary for Management
    Chief Privacy Officer
    Audit Liaison, DHS

    Federal Emergency Management Agency
    Administrator
    Chief of Staff
    Chief Financial Officer
    Chief Counsel
    Chief Procurement Officer
    Director, Risk Management and Compliance
    Audit Liaison, FEMA Region IX
    Audit Liaison, FEMA (Job Code G-13-058)

    Grantee (California Governor’s Office of Emergency Services)
    Director
    Executive Assistant to the Director
    Chief of Staff
    Audit Liaison

    State (California)
    California State Auditor, Bureau of State Audits

    Subgrantee (Graton Community Services District, California)
    President, Board of Directors
    General Manager
    Chief Financial Officer

    Recovery Accountability and Transparency Board
    Director, Investigations, Recovery Accountability and Transparency Board

    Office of Management and Budget
    Chief, Homeland Security Branch
    DHS OIG Budget Examiner

www.o ig.dhs.gov                                14                              OIG-14-109-D
                           OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security

    Congressional Oversight and Appropriations Committees, as appropriate, including:
    Senate Committee on Appropriations, Subcommittee on Homeland Security
    Senate Committee on Homeland Security and Governmental Affairs
    House Committee on Appropriations, Subcommittee on Homeland Security
    House Committee on Homeland Security
    House Committee on Oversight and Government Reform
    House Committee on Transportation and Infrastructure




www.o ig.dhs.gov                            15                                  OIG-14-109-D
